                         National Archives and Records Administration
                                                                                               8601 Adelphi Road
                                                                              College Park, Maryland 20740-6001

Date           December 11, 2009

RepJyto        Office of Inspector General (OIG)
Attn of


Subject       Audit Report No. 10-02 Cotton & Company LLP (C&C) Audit of the
              National Archives and Records Administration FY 2009 Financial Statements

To        :    David Ferriero, Archivist of the United States (N)


               Enclosed for your review are the reports prepared by Cotton & Company, LLP (C&C) for the
               subject audit. C&C issued an unqualified opinion on NARA's FY 2009 financial statements.

               C&C reported two significant deficiencies in internal control over financial reporting in the
               areas of Personal Property and Information Technology resulting in 18 recommendations
               that if implemented, should correct the matters reported. C&C disclosed no material
               weaknesses and no instances of noncompliance with certain provisions of laws and
               regulations.

               In connection with the contract, we reviewed C&C' s report and related documentation and
               inquired of its representatives. Our review, as differentiated from an audit in accordance
               with U.S. Generally Accepted Government Auditing Standards (GAGAS) was not intended
               to enable us to express, as we do not express, an opinion on NARA's financial statements
               or conclusions about the effectiveness of internal control or on whether NARA's financial
               management system substantially complied with FFMIA; or conclusions with laws and
               regulations. C&C is responsible for the attached auditor's report dated November 12,2009
               and the conclusions expressed in the report. However, our review disclosed no instances
               where C&C did not comply, in all material respects, with GAGAS.

               In accordance with NARA 1201, your written response to each recommendation is due
               within 45 days. We appreciate the cooperation and assistance NARA extended to C&C
               and my staff during the audit. If you have any questions, please contact me or James
               Springs, Assistant Inspector General for Auditing at (301) 837-3000.




       t/:~Y/
               Paul Brachfeld
               Inspector General


               Enclosure: Cotton & Company's NARA FY 2009 Financial Statements
                          Independent Audit Report



                                        National Archives and Records Administration
                                     Independent Auditor’s Report


The Inspector General
National Archives and Records Administration

We have audited the accompanying consolidated balance sheet of the National Archives and Records
Administration (NARA) as of September 30, 2009, and the related statement of net cost, changes in net
position and budgetary resources, for the year then ended (hereinafter collectively referred to as the
“financial statements”). These financial statements are the responsibility of NARA’s management. Our
responsibility is to express an opinion on these financial statements based upon our audit. The financial
statements of NARA, as of September 30, 2008, were audited by other auditors whose report dated
November 12, 2008, expressed an unqualified opinion on those statements.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; standards applicable to financial statement audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States; and Office of Management and Budget (OMB)
audit guidance. Those standards require that we plan and perform the audit to obtain reasonable assurance
about whether the financial statements are free of material misstatement. An audit includes examining, on
a test basis, evidence supporting the amounts and disclosures in the financial statements. An audit also
includes assessing the accounting principles and significant estimates made by management, as well as
evaluating the overall financial statements’ presentation. We believe our audit provides a reasonable basis
for our opinion.

In our opinion, the financial statements referred to above, present fairly, in all material respects, the
financial position of NARA as of September 30, 2009, and its net cost, changes in net position, and
budgetary resources for the year then ended, in conformity with accounting principles generally accepted
in the United States of America.

In accordance with Government Auditing Standards, we have also issued our reports dated November 12,
2009, on our consideration of NARA’s internal control over financial reporting, and on our tests of
NARA’s compliance with certain provisions of laws and regulations and other matters. The purpose of
those reports is to describe the scope of our testing on internal control over financial reporting and
compliance, and the results of that testing, and not to provide an opinion on the internal control over
financial reporting or on compliance. Those reports are an integral part of an audit performed in
accordance with Government Auditing Standards and should be read in conjunction with this report, in
considering the results of our audit.

The information in the Management Discussion and Analysis and Required Supplementary Information
sections is not a required part of the consolidated financial statements, but is supplementary information
required by accounting principles generally accepted in the United States of America. We have applied
certain limited procedures, which consisted principally of inquiries of management regarding the methods
of measurement and presentation of this information. However, we did not audit this information and,
accordingly, we express no opinion on it.




                                                     1
Our audits were conducted for the purpose of forming an opinion on the consolidated financial statements
taken as a whole. The information in the Message from the Archivist, Performance Section, and Other
Accompanying Information is presented for purposes of additional analysis and is not required as part of
the consolidated financial statements. This information has not been subjected to auditing procedures
and, accordingly, we express no opinion on it.

COTTON & COMPANY LLP

Jeffrey A. Long, CPA, CISA, CGFM
Partner



November 12, 2009
Alexandria, VA




                                                   2
                  Independent Auditor’s Report on Compliance and Other Matters


The Inspector General
National Archives and Records Administration

We have audited the financial statements of the National Archives and Records Administration (NARA)
as of, and for the year ended September 30, 2009, and have issued our report thereon dated November 12,
2009. We conducted our audit in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and Office of Management and
Budget (OMB) audit guidance.

NARA’s management is responsible for complying with laws and regulations applicable to NARA. As
part of obtaining reasonable assurance about whether NARA’s financial statements are free of material
misstatements, we performed tests of NARA’s compliance with certain provisions of laws and regulations
that have a direct and material effect on the financial statements. We did not test compliance with all laws
and regulations applicable to NARA. We limited our tests of compliance to those provisions of laws and
regulations required by OMB audit guidance that we deemed applicable to the financial statements, for
the fiscal year ended September 30, 2009. We caution that noncompliance may have occurred and may
not have been detected by these tests, and that such testing may not be sufficient for other purposes.

The results of our tests of compliance with laws and regulations described in the preceding paragraph
disclosed no instances of material noncompliance that are required to be reported under Government
Auditing Standards and OMB audit guidance. However, providing an opinion on compliance with certain
provisions of laws and regulations was not an objective of our audit, and, accordingly we do not express
such an opinion.

This report is intended solely for the information and use of management of NARA, NARA Office of
Inspector General, the Government Accountability Office (GAO), OMB, and Congress, and is not
intended to be and should not be used by anyone other than those specified parties.

COTTON & COMPANY LLP

Jeffrey A. Long, CPA, CISA, CGFM
Partner



November 12, 2009
Alexandria, VA




                                                     3
                           Independent Auditor’s Report on Internal Control


The Inspector General
National Archives and Records Administration

We have audited the financial statements of the National Archives and Records Administration (NARA)
as of, and for the year ended September 30, 2009, and have issued our report thereon dated November 12,
2009. We conducted our audit in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and Office of Management and
Budget (OMB) audit guidance.

In planning and performing our audit, we considered NARA’s internal control over financial reporting by
obtaining an understanding of the design effectiveness of NARA’s internal control, determining whether
these controls had been placed in operation, assessing control risk, and performing tests of the controls in
order to determine our auditing procedures for the purpose of expressing our opinion on the consolidated
financial statements, and not to provide an opinion on the internal controls. Accordingly, we do not
express an opinion on the effectiveness of NARA’s internal control over financial reporting.

We limited our internal control testing to those controls necessary to achieve the objectives described in
OMB audit guidance. We did not test all internal controls relevant to operating objectives, as broadly
defined by the Federal Managers' Financial Integrity Act of 1982 (FMFIA), such as those controls
relevant to ensuring efficient operations.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. A significant deficiency is a control deficiency, or combination of
control deficiencies, that adversely affects NARA’s ability to initiate, authorize, record, process, or report
financial data reliably, in accordance with generally accepted accounting principles, such that there is
more than a remote likelihood that a misstatement of NARA’s financial statements that is more than
inconsequential will not be prevented or detected by NARA’s internal controls.

A material weakness is a significant deficiency, or combination of significant deficiencies, that results in
more than a remote likelihood that a material misstatement of the financial statements will not be
prevented or detected by NARA’s internal controls.

Our consideration of internal controls was for the limited purpose described in the second and third
paragraphs of this report, and would not necessarily identify all deficiencies in internal control that might
be significant deficiencies or material weaknesses.

We identified two deficiencies in internal control over financial reporting that we consider to be
significant deficiencies. However, we do not believe that the significant deficiencies described below are
material weaknesses over financial reporting.

                                   *******************************

                                                      4
SIGNIFICANT DEFICIENCIES

I. Personal Property

NARA’s processes and internal control procedures used to ensure the proper accountability of personal
property assets and related accounting transactions need improvement. Improvements are needed in the
following key areas:

    A . Adherence to Policies and Procedures - NARA employees do not always follow operating
        policies and procedures implemented by the Facilities and Personal Property Management
        Division (NAF) regarding the accountability of personal property items. Specifically, staff
        members do not always report or document the acquisition, transfer, or disposition of personal
        property items.

    B . Personal Property in the Hands of Contractors - NARA does not have policies and procedures
        in place to ensure the physical accountability of NARA-owned assets that are in the custody of
        contractors. In addition, NARA property managers do not barcode or inventory personal property
        used by and in the possession of contractors.

    C . Personal Property Systems - Personal property is tracked in the Personal Property Management
        System (PPMS), which does not interface with the general ledger. NARA has determined that the
        cost of integrating PPMS with the general ledger would exceed the benefits; therefore, these two
        systems will not be integrated. NARA’s Financial Reports Staff (NAX) has been unable to rely
        on PPMS for certain property accounting functions due to the system’s instability. Instead,
        personal property transactions (e.g. acquisitions, disposals, and depreciation) are valued on
        Microsoft Excel spreadsheets using PPMS information and manual processes. These processes
        are prone to human error and sufficient compensating controls are not in place to provide
        reasonable assurance that errors will be identified and corrected in a timely manner.

OMB Circular A-123, Management’s Responsibility for Internal Control states:

    It is management’s responsibility to develop and maintain effective internal control…Agency
    managers should continuously monitor and improve the effectiveness of internal control
    associated with their programs.

In addition, Government Accountability Office’s (GAO) Standards for Internal Control in the Federal
Government states:

    An agency must establish physical control to secure and safeguard vulnerable assets. Examples
    include security for and limited access to assets such as cash, securities, inventories, and
    equipment which might be vulnerable to risk of loss or unauthorized use.

Failing to implement adequate processes and internal control procedures over personal property
transactions could result in assets being stolen or misplaced and not being detected by management in a
timely manner. In addition, personal property related account balances could be misstated because
accounting personnel are not notified of acquisitions and disposals in a timely manner. The following
issues were noted when testing personal property transactions as of June 30, 2009.

    1. Stewardship of Accountable Items – While performing testing of NARA’s internal control over
       accountable personal property assets, we noted the following issues:



                                                    5
       •   NARA was unable to locate one asset in our sample, and thus, we could not verify the
           existence of the item.

       •   Nine sampled items were recorded as being physically located in Archives II in PPMS, but
           the results of our audit procedures indicated the items were located at various other NARA
           field locations.

       •   Two accountable items were identified at NARA facilities and were not recorded in PPMS.

   2. Account Balance Misstatements - While performing testing of personal property accounting
      transactions, we noted the following issues:

       •   NARA improperly recorded disposal transactions for fully depreciated personal property
           items with a total acquisition cost of roughly $21 million. In FY 2009, NARA recorded
           disposal transactions for all fully depreciated personal property assets without first verifying
           the physical status of the asset. These improper entries were subsequently reversed.

       •   In addition, we noted several insignificant errors in depreciation calculations that were caused
           by human error.

       Recommendations

       We recommend that NAF should:

       1. Finalize and implement its personal property policies and procedures manual during the first
          quarter of FY 2010.

       2. Provide personal property-related training to NARA employees.

       3. Design and implement monitoring procedures to ensure NARA employees adhere to personal
          property-related policies and procedures.

       4. Design and implement procedures to ensure the accountability of assets in the custody of
          contractors.

       5. Continue to implement personal property accounting functionality within the Maximo
          system, and in doing so, ensure that the application has adequate functionality to meet the
          requirements articulated by the Joint Financial Management Improvement Program (JFMIP)
          in its document titled, Property Management Systems Requirements.

       We recommend that NAX should:

       6. Perform a risk assessment to determine if it has sufficient procedures in place to mitigate
          risks posed by the manual processes used to account for personal property transactions.

       7. Design and implement controls, as necessary, to address significant risks identified during the
          risk assessment.

II. Information Technology

During FY 2009 NARA continued to make improvements in its information technology (IT) control
environment by addressing recommendations made in previous audits. However, improvements are still

                                                    6
needed in the following IT control areas: access control, segregation of duties, and contingency planning.
Deficiencies noted in each area are discussed in sections A through C below. The issues discussed below,
combined with the open recommendations from the previous fiscal year’s (see Appendix A) financial
statement audit, collectively represent a significant deficiency in internal control over financial reporting.

A. Access Controls
   Access controls provide reasonable assurance that access to computer resources is reasonable and
   restricted to authorized individuals. NARA access control procedures must be improved in the
   following areas: account management, exit clearance process and incident response programs.
   Specific issues identified during testing are discussed below.

    1. Account Management
       NARA has not implemented sufficient controls to ensure that account management policies and
       procedures are consistent with National Institute of Standards and Technology (NIST)
       requirements and industry best practices. Application-specific issues noted during testing are
       discussed below:

        a) NARANET
           • NARA management relies on the annual security awareness training process to recertify
             accounts and determine if users still require system access. This process does not ensure
             that all applicable accounts are removed or disabled in a timely manner because the
             certification only occurs once per year. Additionally, this process only reviews
             individuals with login abilities; it does not review accounts that are not assigned to a
             specific individual (e.g. backup accounts, test accounts, and training accounts).

            •   Numerous NARANET accounts exist that are used for testing, training, and back-up.
                The responsibility for managing and determining the ongoing need for these accounts are
                not associated to a specific individual. Therefore, unnecessary accounts may be still
                active due to a lack of oversight responsibilities.

            •   Inactive accounts are not consistently disabled or removed in a timely manner. We noted
                224 accounts in which the user had either never logged on to NARANET or had not
                logged on in over a year. In all 224 cases, the accounts were not disabled.

            •   NARANET’s maximum password age requirement of 365 days is not consistent with
                NIST and OMB requirements and is not effective for providing adequate protection
                against unauthorized use. The password age requirement of 365 days was put in place
                based upon a standard designed for public use systems, NIST Special Publication (SP)
                800-63 Electronic Authentication Guideline, which is not meant for internal government
                use systems. In addition, our testing identified 37 active accounts that had not changed
                their password in over 365 days. These password practices and issues increase the risk
                that unauthorized users could effectively guess passwords and gain access to NARA’s
                computing resources.

        b) Records Center Program Billing System (RCPBS)
           •  RCPBS does not have configurable lockout policy settings. Also, RCPBS does not have a
              configurable password policy that requires users to change their password periodically;
              prohibits the reuse of passwords for a specific length of time; and automatically expiries
              user passwords.

            •   Additionally, inactive accounts are not consistently disabled or removed in a timely
                manner. We identified 34 accounts that were inactive for over 365 days.

                                                      7
        c) Personal Property Management System (PPMS):

            Our testing noted that PPMS cannot enforce a configurable password or lockout policy.

NIST SP 800-53, Revision 2: Recommended Security Controls for Federal Information Systems, requires
the following:

    AC-2 ACCOUNT MANAGEMENT
    The organization manages information system accounts, including establishing, activating,
    modifying, reviewing, disabling, and removing accounts. The organization reviews information
    system accounts at least annually.

    The organization specifically authorizes and monitors the use of guest/anonymous accounts and
    removes, disables, or otherwise secures unnecessary accounts. Account managers are notified
    when information system users are terminated or transferred and associated accounts are
    removed, disabled, or otherwise secured. Account managers are also notified when users’
    information system usage or need-to-know/need-to-share changes.

    AC-7 UNSUCCESSFUL LOGIN ATTEMPTS
    The information system enforces a limit of 5 consecutive invalid access attempts by a user during
    a 15-minute time period. The information system automatically locks the account until released
    by an administrator when the maximum number of unsuccessful attempts is exceeded.

    IA-5 AUTHENTICATOR MANAGEMENT
    The organization manages information system authenticators by: (i) defining initial authenticator
    content; (ii) establishing administrative procedures for initial authenticator distribution, for
    lost/compromised, or damaged authenticators, and for revoking authenticators; (iii) changing
    default authenticators upon information system installation; and (iv) changing/refreshing
    authenticators periodically.

    For password-based authentication, the information system: (i) protects passwords from
    unauthorized disclosure and modification when stored and transmitted; (ii) prohibits passwords
    from being displayed when entered; (iii) enforces password minimum and maximum lifetime
    restrictions; and (iv) prohibits password reuse for a specified number of generations.

In addition, the Federal Desktop Core Configuration (FDCC) requires the following:

    MAXIMUM PASSWORD AGE
    All desktop operating systems in the Federal government are required to meet the minimum
    security controls defined in the Federal Desktop Core Configuration (FDCC) guidance provided
    by NIST. This guidance that applies to Windows desktops requires a maximum password age of
    60 days.

Center for Internet Security (CIS), Novell eDirectory 8.7, Consensus Baseline, requires the following:

    MAXIMUM PASSWORD AGE
    The 60 day recommendation from FDCC guidance is also consistent with the Center for Internet
    Security’s Novell eDirectory 8.7 Consensus Baseline Security, Security Settings Version
    1document which requires a maximum password age setting of 90 days or less.



                                                    8
Without proper account management procedures, there is an increased risk that malicious users will be
able to access NARA systems and resources. Such unauthorized access could result in the loss of data
confidentiality, integrity, or availability.

        Recommendations

        We recommend that that the NARA Chief Information Officer (CIO):

        8. Implement a process for managing NARANET accounts that:

            a) Requires a recertification of all system accounts at least annually.

            b) Ensures all accounts are tied to a specific individual who has the responsibility for
               managing the account, and determining the ongoing need for non-login accounts.

            c) Identifies inactive accounts on a regular basis and removes access in a timely manner.

            d) Ensures all access and privileges of terminated employees are promptly removed.

        9. Implement a more restrictive password age control for NARANET that is consistent with
           requirements for Federal information systems.

        10. Implement a process for managing RCPBS accounts that:

            a) Requires a recertification of all system accounts at least annually.

            b) Identifies inactive accounts on a regular basis and removes or disables access in a timely
               manner.

            c) Implements a more restrictive password age control that is consistent with requirements
               for federal information systems.

        11. Implement compensating logging and monitoring controls for PPMS to ensure that the risk of
            unauthorized access is mitigated.

    2. Exit Clearance Process
       NARA has not implemented sufficient controls to ensure that its exit clearance policies and
       procedures are consistent with NIST requirements. Specific, issues noted during testing were:

        a) NARANET accounts for terminated employees were not consistently disabled or removed in
           a timely manner. Out of 45 sampled terminated employees, we identified five accounts that
           were not disabled or removed a month after their effective termination date. Three of these
           accounts were still active at the time of our testing. In addition, two of the terminated
           employees had accessed NARANET at least once after their effective termination date.

        b) RCPBS accounts of terminated employees were not consistently disabled or removed in a
           timely manner. We identified four instances in which terminated employees accounts were
           not disabled or removed because the IT Helpdesk, or other appropriate personnel, were not
           notified of their separation.

NIST SP 800-53, Revision 2: Recommended Security Controls for Federal Information Systems, requires
the following:

                                                     9
    PS-4 PERSONNEL TERMINATION
    The organization, upon termination of individual employment, terminates information system
    access, conducts exit interviews, retrieves all organizational information system-related property,
    and provides appropriate personnel with access to official records created by the terminated
    employee that are stored on organizational information systems.

An ineffective exit clearance process increases the risk that disgruntled former employees could use their
continued system access to negatively impact the organization. Such unauthorized access could result in
the loss of data confidentiality, integrity, or availability.

        Recommendations

        We recommend that the Office of Policy and Planning Staff (NPOL):

        12. Enforce its current policies and procedures used to manage systems and accounts to ensure all
            access and privileges of terminated employees are promptly removed.

        13. Ensure that supervisors receive training in their exit clearance process responsibilities,
            including alerting applicable personnel when employees and contractors under their
            supervision no longer require access.

    3. Incident-Response Program
       Currently, NARA’s incident response methodology does not include testing of the incident
       response plan or NARA-specific training for incident response roles. NARA is currently in the
       process of finalizing a contract with an independent contractor to provide incident response
       program support. This support will include an assessment of NARA's incident response program,
       targeted training to NARA personnel involved with incident response, and a simulation of
       incident response exercises.

NIST SP 800-53, Revision 2: Recommended Security Controls for Federal Information Systems, requires
the following:

    IR-2 INCIDENT RESPONSE TRAINING
    The organization trains personnel in their incident response roles and responsibilities with
    respect to the information system and provides refresher training at least annually.

    IR-3 INCIDENT RESPONSE TESTING AND EXERCISES
    The organization tests and/or exercises the incident response capability for the information
    system at least annually using organization-defined tests and/or exercises to determine the
    incident response effectiveness and documents the results.

Without strong incident response training and testing, NARA cannot ensure that its current incident
response procedures will be handled effectively by those with incident response roles and responsibilities
or will properly mitigate all detected security incidents.

        Recommendation

        14. We recommend that that the NARA CIO continue its effort to finalize the contract with the
            independent contractor to provide an assessment of NARA's incident response program,
            provide targeted training to NARA personnel involved with incident response, and to conduct
            simulated exercises.

                                                     10
B. Segregation of Duties
   Segregation of duties controls provide reasonable assurance that incompatible duties are effectively
   segregated. NARA does not have sufficient controls in place to ensure that incompatible roles in
   RCPBS are not assigned to individual system users. Specifically, when reviewing Webtally (a
   component system of RCPBS), we found that:

    1. Seventy-seven users were assigned the “MANAGER” role in Webtally, and can both enter and
       approve transactions without the transaction being reviewed by a second party.

    2. Users can be assigned multiple accounts with incompatible roles. For example, individuals with
       user accounts (e.g. “ACCTREP”, “MANAGER”) can also be given accounts with security
       administration capabilities (“ADMIN”). We noted 3 instances in which users were assigned
       security administration rights in addition to their user rights.

NIST SP 800-53, Revision 2: Recommended Security Controls for Federal Information Systems, states
the following:

    AC-5 SEPARATION OF DUTIES
    The information system enforces separation of duties through assigned access authorizations.

    The organization establishes appropriate divisions of responsibility and separates duties as
    needed to eliminate conflicts of interest in the responsibilities and duties of individuals. There is
    access control software on the information system that prevents users from having all of the
    necessary authority or information access to perform fraudulent activity without collusion.
    Examples of separation of duties include: (i) mission functions and distinct information system
    support functions are divided among different individuals/roles; (ii) different individuals perform
    information system support functions (e.g., system management, systems programming, quality
    assurance/testing, configuration management, and network security); and (iii) security personnel
    who administer access control functions do not administer audit functions.

Improper segregation of duties increases the risk of fraudulent acts, which could lead to financial, data
and service loss, as well as potentially compromise the integrity, confidentiality, and availability of
RCPBS data.

        Recommendation

        We recommend that the Assistant Archivist for Regional Records Services (NR):

        15. Develop and implement policies and procedures that prohibit RCPBS users from having
            multiple accounts as well as the ability to enter and approve their own transactions.

C. Contingency Planning
   Contingency planning helps protect information resources by minimizing the risk of unplanned
   interruptions and provides for the recovery of critical operations, should interruptions occur. NARA
   did not have sufficient controls in place to ensure that contingency and disaster recovery plans for
   financial systems reflected current operating conditions. Specifically, our testing noted that the Order
   Fulfillment and Accounting (OFAS) contingency plan and the RCPBS disaster recovery plan did not
   reflect current operating conditions.

NIST SP 800-53, Revision 2: Recommended Security Controls for Federal Information Systems, states
the following:

                                                     11
   CP-5 CONTINGENCY PLAN UPDATE
   The organization reviews the contingency plan for the information system at least annually and
   revises the plan to address system/organizational changes or problems encountered during plan
   implementation, execution, or testing.

Not having complete and up-to-date disaster recovery and contingency plans for key financial systems
increases the risk that NARA would be unable to respond to an emergency situation, which could lead to
financial loss and loss of important data or service(s).

       Recommendations

       We recommend that the NARA CIO:

       16. Fully implement a contingency planning policy that is consistent with guidance provided in
           NIST SP 800-34, Contingency Planning Guide for Information Technology Systems. The
           policy should include requirements for updating the contingency plan to reflect current
           operating conditions.

       We recommend that the Assistant Archivist for Administration (NA):

       17. Update the contingency and disaster recovery plans for OFAS to reflect current operating
           conditions.

       We recommend that NR:

       18. Update the contingency and disaster recovery plans for RCPBS to reflect current operating
           conditions.




                                                  12
STATUS OF PRIOR YEAR COMMENTS

We have reviewed the status of NARA’s corrective actions with respect to the significant deficiency from
the previous year’s report on internal control. Details of the status of the recommendations are reported in
Appendix A to this report.

                                  *******************************

NARA’s management response to the significant deficiencies identified in our report is included as
Appendix B to this report. We did not audit NARA’s response and, accordingly, we provide no opinion
on it.

In addition to the significant deficiencies described above, we noted certain matters involving internal
control and its operation that we reported to NARA management in a separate letter, dated November 12,
2009.

This report is intended solely for the information and use of management of NARA, NARA Office of
Inspector General, GAO, OMB, and Congress, and is not intended to be and should not be used by
anyone other than those specified parties.

COTTON & COMPANY LLP

Jeffrey A. Long, CPA, CISA, CGFM
Partner



November 12, 2009
Alexandria, VA




                                                     13
                                  Appendix A
               NATIONAL ARCHIVES AND RECORDS ADMINSTRATION
            STATUS OF PRIOR YEAR FINDINGS AND RECOMMENDATIONS
                               September 30, 2009

Condition/Audit    Recommendation               Recommendation                Current
    Area               Number                                                  Status
                              Significant Deficiency
Access Controls          1          Develop and implement VPN user             Closed
                                    access recertification procedures to
                                    require regular user access reviews for
                                    reasonableness.
                         2          Revise NARA IT Security                    Closed –
                                    Requirements to specify a specific time    Revised
                                    frame (i.e., 24 or 48 hours) in which     during FY
                                    system access is to be removed upon         2009.
                                    an employee’s separation of
                                    employment.
                         3          Develop and implement Novell               Closed
                                    administrator user access
                                    recertification procedures to require
                                    regular user access reviews for
                                    reasonableness.
                         4          Enable Novell audit logging activity       Closed
                                    for user logins, ACL changes, add
                                    group member or delete group member
                                    events in accordance with NARA
                                    policy.
                         5          Update attack signatures for NARA          Closed
                                    NIDS to the most recent version.
  Entity-Wide            6          Complete risk assessments for all           Open
Security Program                    NARNET components.
                         7          Finalize and approve security plans for     Open
                                    all NARANET components.
                         8          Certify each NARANET component,             Open
                                    then certify and accredit the entire
                                    NARANET general support system
                         9          Implement policies and procedures           Open
                                    which require the completion of
                                    security and awareness training before
                                    being granted access to NARA
                                    information systems.
                         10         Complete exit clearance forms (Form        Closed –
                                    3009) for all separating employees         Revised
                                    which include formal sign offs by         during FY
                                    functional managers and maintain these      2009.
                                    documents in accordance with NARA
                                    document retention policies.
                         11         Modify IT security requirements for        Closed
                                    new hires prior to accessing NARA
                                    systems which map to interim
                                    clearance procedures for badge
                                              14
                        issuance.
Contingency Plan   12   Finalize and approve the COOP in      Closed
                        accordance with HSPD 7, 51, and 20,
                        FCD 1, and NIST SP 800-34.
                   13   Finalize and approve the NARANET      Closed
                        general support system contingency
                        plan.




                               15
National Archives and Records Administration
Performance and Accountability Report, FY 2009

Management Response to Auditor’s Report (FY 2009)




114                                                 Financial Section
